WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5496

  

Jose Yeyille

 

Armandina Acosta-Leon, et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court, Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

  

Signature: |
Date: g/27i24

(Type or print) Name Walter J. Harvey

 

 

   

 

© wr. “O Ms, © Miss
Firm School Board of Miami-Dade County Attorney's Office :
Adiress 1450 N.E. 2nd Ave., Suite 430 a ‘|
City & State Miami, Florida _ ee Zip 93132
Phone 305-9951304 - / 7 | Email walter harvey@dadeschools.net

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Jose Yeyille, pro se
‘Luis M. Garcia, Esquire
|
